APPENDIX

1

APPENDIX
TABLE OF CONTENTS
Appendix A Judgment in the United States Court
of Appeals for the Eighth Circuit, No.
19-2939
(October 10, 2019)
App. 1
Appendix B Memorandum and Order , in the
United States District Court Eastern
District of Missouri, Eastern Division,
No. 4:15-CV-00253-AGF
(August 6, 2019)
App. 3
Appendix C Opinion and Judgment in the United
States Court of Appeals for the Eighth
Circuit, No. 18-1472
(January 10, 2019)
App. 11
Appendix D Memorandum and Order in the
United States District Court Eastern
District of Missouri, Eastern Division,
No. 4:15-CV-00253-AGF
(February 13, 2018)
App. 17
Appendix E Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Eighth Circuit, No.
19-2939
(November 15, 2019).
App. 23
Appendix F U.S. Const. Amend XI

App. 25

Appendix G 42 U.S.C.A. § 1983 . .

App. 26

Appendix H Fed. R. Civ. Proc. 19 .

App. 28

11

Appendix I Ferguson’s Conditional Motion Under
Fed. R. Civ. P. 19 to Remand with
Instructions to Dismiss for Failure to
Join a Required Party in the United
States Court of Appeals for the Eighth
Circuit, No. 18-1472
(July 26, 2018)
App. 31
Appendix J Order Taking the Rule 19 Motion with
the Case in the United States Court
of Appeals for the Eighth Circuit, No.
18-1472
(August 8, 2018)
App. 45

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2939
[Filed October 10, 2019]
Keilee Fant, individually and
on behalf of all others similarly
situated; Roelif Carter; Allison
Nelson; Herbert Nelson, Jr.;
Alfred Morris; Anthony Kimble;
Donyale Thomas; Shameika
Morris; Daniel Jenkins; Ronnie
Tucker
Plaintiffs - Appellees
Tonya DeBerry
Plaintiff
John R. Narayan, personal
representative of the estate of
Tony DeBerry, Deceased
Plaintiff - Appellee
v.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 2
City of Ferguson, Missouri
Defendant - Appellant

)
)
)
)

Appeal from U.S. District Court for the Eastern
District of Missouri - St. Louis
(4:15-cv-00253-AGF)
JUDGMENT
Before COLLOTON, GRUENDER, and GRASZ, Circuit
Judges.
Appellees’ motion to dismiss the appeal for lack of
jurisdiction is granted. Appellant’s motion to stay
proceedings in the district court is denied as moot.
October 10, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

App. 3

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
No. 4:15-CV-00253-AGF
[Filed August 6, 2019]
KEILEE FANT, et al.,
Plaintiffs,
vs.

)
)
)
)
)
)

THE CITY OF FERGUSON,)
Defendant.

)
)

MEMORANDUM AND ORDER
Plaintiffs in this putative class action claim that
they have been jailed by Defendant, the City of
Ferguson (the “City”), on numerous occasions because
they were unable to pay cash bonds or other debts
resulting from their traffic and other minor offenses * V
Plaintiffs allege that, in violation of the United States
Constitution and as a matter of the City’s policies and
practices, they were not afforded counsel, any inquiry
into their ability to pay, or a neutral finding of probable
cause in a prompt manner; and they were held in jail

App. 4
indefinitely, in overcrowded and unsanitary conditions,
until they or their friends or family members could
make a monetary payment sufficient to satisfy the
City, as part of a broad, revenue-generating scheme.
Plaintiffs’ amended complaint asserts seven claims
pursuant to 42 U.S.C. § 1983, under the Fourth, Sixth,
and Fourteenth Amendments. They seek compensatory
damages as well as declaratory and injunctive relief.
The City moves to dismiss, for failure to join a party
under Federal Rule of Civil Procedure 19, all claims in
Plaintiffs’ first amended complaint except the claim
relating to conditions of confinement (Count IV). This
is the fourth motion to dismiss filed by the City in this
now four-year-old case. This motion asserts arguments
similar to those raised in prior motions but reframes
them in terms of Rule 19. In short, the City argues that
Plaintiffs’ constitutional challenges are directed solely
to the conduct of the Ferguson Municipal Court (the
“municipal court”), which the City argues is a separate
entity, and that the municipal court is therefore
required to be joined as a co-defendant under Rule
19(a). But the City argues that joinder is not feasible
because the municipal court is an arm of the state
under Missouri law and, as such, entitled to sovereign
immunity. The City contends that because there is a
potential for injury to the interests of the municipal
court and because the municipal court is immune from
suit, dismissal of the claims at issue is required under
Rule 19(b). For the reasons set forth below, the Court
will deny the City’s motion.

App. 5
DISCUSSION
Federal Rule of Civil Procedure 12(b)(7) permits
dismissal of a claim for failure to join a party under
Rule 19. Rule 19, in turn, sets forth a two-part inquiry.
First, the Court must determine whether the absent
person’s presence is “required.” Fed. R. Civ. P. 19(a)(1).
Joinder is required when:
(A) in that person’s absence, the court cannot
accord complete relief among existing parties; or
(B) that person claims an interest relating to the
subject of the action and is so situated that
disposing of the action in the person’s absence
may:
(i) as a practical matter impair or impede the
person’s ability to protect the interest; or
(ii) leave an existing party subject to a
substantial risk of incurring double,
multiple, or otherwise inconsistent
obligations because of the interest.
Fed. R. Civ. P. 19(a)(1).
“[T]he focus of Rule 19(a)(1) is on relief between the
parties and not on the speculative possibility of further
litigation between a party and an absent person.”
Cedar Rapids Bank & Tr. Co. v. Mako One Corp., 919
F.3d 529, 534-35 (8th Cir. 2019) (citation omitted).
When joinder is not required under Rule 19(a), “the
inquiry is at an end, and the motion to dismiss for
failure to join the party in question must be denied.”

App. 6
Rochester Methodist Hosp. v. Travelers Ins. Co., 728
F.2d 1006, 1016 (8th Cir. 1984).
If joinder is required but not feasible, the Court
must proceed to the second step and “determine
whether, in equity and good conscience, the action
should proceed among the existing parties or should be
dismissed,” considering several enumerated factors.
Fed. R. Civ. P. 19(b). Factors to consider include (1) the
extent to which a judgment in the required person’s
absence might prejudice that person or the existing
parties; (2) the extent to which such prejudice could be
lessened or avoided by protective provisions or
otherwise shaping the relief to be granted; (3) the
adequacy of a judgment rendered in the person’s
absence; and (4) whether the plaintiff would have an
adequate remedy if the action were dismissed for
nonjoinder. Fed. R. Civ. P. 19(b). In analyzing these
factors in the context of a claim of sovereign immunity,
the Court must give sufficient weight to the sovereign
status of the absent person, which “in some instances,
[will mean] that the plaintiffs will be left without a
forum for definitive resolution of their claims.”
Republic of Philippines v. Pimentel, 553 U.S. 851, 872
(2008).
The Rule 19 inquiry is a “highly-practical, factbased endeavor,” and courts are “generally reluctant to
grant motions to dismiss of this type.” Fort Yates Pub.
Sch. Dist. No. 4 v. Murphy ex rel. C.M.B., 786 F.3d 662,
671 (8th Cir. 2015). “A decision under Rule 19 not to
decide a case otherwise properly before the court is a
power to be exercised only in rare instances.” Nanko

App. 7
Shipping, USA v. Alcoa, Inc., 850 F.3d 461, 465 (D.C.
Cir. 2017) (emphasis in original) (citation omitted).
The Court concludes that the municipal court
(perhaps more properly referenced as the municipal
division) is not a required party under Rule 19(a). Rule
19(a)(l)(A)’s condition that a court be able to accord
complete relief “does not mean that every type of relief
sought must be available, only that meaningful relief
be available.” Henne v. Wright, 904 F.2d 1208, 1212 n.4
(8th Cir. 1990) (internal citations omitted). Here, the
Court is able to accord meaningful relief to Plaintiffs
without joinder of the municipal court. Plaintiffs seek
money damages from the City, a declaration that the
City violated their constitutional rights, and an
injunction enjoining the City from enacting and
enforcing its allegedly unlawful policies and customs.
The Court may provide such relief to the extent that
Plaintiffs’ claims prove to be viable and meritorious.
The City’s argument that the municipal court, and not
the City, caused the alleged constitutional violations
may be a reason to deny relief on Plaintiffs’ claims,1 but

1 Plaintiffs’ claims arise out of arrests dating back to 2010.
Although the City cites to Missouri Supreme Court Rule 37.04,
governing supervision of courts hearing ordinance violations, in
support of its argument, the current version of that Rule was not
adopted until 2016. The 2016 amendment required, for the first
time, that municipal courts operate in substantial compliance with
certain minimum operating standards, which were not made
effective until July 1, 2017. See Mo. S. Ct. R. 37.04 & 37.04 app. A
(amended Sept. 20,2016, eff. July 1,2017). Moreover, although the
City argues that Plaintiffs’ allegations concern solely municipal
court functions, Plaintiffs also allege, for example, that the City’s
chief of police negotiated cash payments from Plaintiffs directly in

App. 8
it does not support a finding under Rule 19(a)(1) that
joinder of the municipal court is required. See, e.g.,
Gwartz v. Jefferson Mem’l Hosp. Ass’n, 23 F.3d 1426,
1429 (8th Cir. 1994) (“Whether the asserted facts
support claims other than the ones before the court or
whether the complaint here adequately states [the
plaintiffs’] claims . . . are not the issues under Rule
19(a)(1).”).
Likewise, under Rule 19(a)(1)(B), even assuming
that the municipal court has an interest relating to the
subject of the action, disposition of the action in the
municipal court’s absence will not as a practical matter
impair or impede the municipal court’s ability to
protect its interest. See Fed. R. Civ. P. 19(a)(1)(B)(i). In
support of its argument to the contrary, the City relies
primarily on the Eighth Circuit’s opinion in Two
Shields v. Wilkinson, 790 F.3d 791 (8th Cir. 2015). In
that case, the plaintiffs claimed that the named
defendants induced an absent sovereign, the United
States, to breach its fiduciary duty by approving leases
for interests in land held in trust. Id. at 792-93. In
other words, in order to prevail on their claims against
the named defendants, the plaintiffs were required to
prove that the absent sovereign acted illegally. Id. at
796. A judgment entered in the sovereign’s absence
would thus “potentially cloud the validity of many of
the land grants approved by the government.” Id. For
this reason, the Eighth Circuit found that the United
States’ ability to protect its interest would be impaired

exchange for their release from jail, without the involvement of the
municipal court. E.g., ECF No. 53
29-30.

App. 9
or impeded by its absence from the litigation. Id. at
797.
By contrast, here, none of Plaintiffs’ claims requires
a showing that the municipal court acted illegally.
Rather, for Plaintiffs to succeed on their claims, they
must demonstrate that the City acted unlawfully.2 See
Fochtman v. Darp, Inc., No. 5:18-CV-5047, 2018 WL
3148113, at *6—7 (W.D. Ark. June 27, 2018)
(distinguishing Two Shields on this ground and holding
that an absent sovereign’s more remote interest in the
outcome of a case was insufficient to require joinder).
Nor would the municipal court’s absence subject the
City to a substantial risk of incurring double or
otherwise inconsistent obligations. See Fed. R. Civ. P.
19(a)(1) (B)(ii). The City’s own argument supports such
a holding. The City asserts that, as a matter of law, it
cannot be held liable for the municipal court’s conduct.
If the City is correct, and if the actions complained of
were caused by the municipal court, then as explained
above, Plaintiffs’ claims may fail on the merits. But
resolution of these issues does not require the
municipal court’s joinder. See Gwartz, 23 F.3d at 1430.
2 The other cases relied upon by the City are even more readily
distinguishable. Pimentel was an interpleader action in which the
parties conceded that the absent sovereign claiming an interest in
the assets at issue was a required party under Rule 19(a). 553U.S.
at 864. And Ray v. Judicial Corrections Services, Inc., No.
2:12-CV-02819-RDP, 2017 WL 660842 (N.D. Ala. Feb. 17, 2017)
and McMillian v. Johnson, No. CV-93-A-699-N, 1994 WL 904652
(M.D. Ala. Feb. 18, 1994), were not Rule 19 cases at all but
involved motions for summary judgment and to dismiss for failure
to state a claim, respectively, which are more appropriate vehicles
for resolving merits arguments like the ones the City raises.

App: 10
Because the municipal court is not a required party
under Rule 19(a), the Court need not address whether
dismissal is required under Rule 19(b). The City’s
motion must be denied. In light of the extensive
briefing submitted on these issues, oral argument is
unnecessary.
CONCLUSION
For the reasons set forth above,
IT IS HEREBY ORDERED that Defendant’s
motion to dismiss Counts I through III and V through
VII, and motion for a hearing, are both DENIED. ECF
Nos. 223 & 226.
/s/Audrey G. Fleissig
AUDREY G. FLEISSIG
UNITED STATES DISTRICT JUDGE
Dated this 6th day of August, 2019.

App. 11

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1472
[Filed January 10, 2019]
Keilee Fant, individually and
on behalf of all others similarly
situated; Roelif Carter; Allison
Nelson; Herbert Nelson, Jr.;
Alfred Morris; Anthony Kimble;
Donyale Thomas; Shameika
Morris; Daniel Jenkins; Ronnie
Tucker; Tonya DeBerry,
Plaintiffs - Appellees,
v.
City of Ferguson, Missouri,
Defendant - Appellant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
Submitted: September 28, 2018
Filed: January 10, 2019

App. 12
Before COLLOTON, GRUENDER, andGRASZ, Circuit
Judges.
COLLOTON, CircuithJudge.
Keilee Fant and ten others brought a putative class
action against the City of Ferguson, alleging several
constitutional violations under 42 U.S.C. § 1983. The
City moved to dismiss six of seven counts based on
sovereign immunity. The district court1 denied the
motion, and the City seeks interlocutory review of this
decision. Because the City disclaims any sovereign
immunity for itself, and seeks only to invoke the
sovereign immunity of a nonparty, we dismiss the
appeal for lack of jurisdiction.
The six counts at issue stem from the City’s alleged
detention of plaintiffs for their inability to pay traffic
fines. The City’s motion to dismiss argued that
sovereign immunity barred those claims because the
alleged injuries are attributable to the Ferguson
Municipal Court, which the City says is an arm of the
State of Missouri. The district court denied the motion,
concluding the City is not entitled to sovereign
immunity, and that the amended complaint sufficiently
alleges that the plaintiffs’ injuries are attributable to
the City.
Given that the litigation continues in the district
court, the parties dispute whether there is a “final
decision” over which this court has appellate

1 The Honorable Audrey G. Fleissig, United States District Judge
for the Eastern District of Missouri.

App. 13
jurisdiction. See 28 U.S.C. § 1291. The City invokes the
well-established principle that an order denying a
claim of sovereign immunity is subject to interlocutory
appeal under the collateral order doctrine. See P.R.
Aqueduct & Sewer Auth. v. Metcalf & Eddy, Inc., 506
U.S. 139, 141 (1993). That principle, however, does not
apply where the party appealing disclaims any
immunity of its own and instead seeks to invoke the
immunity of a nonparty. Sovereign immunity protects
certain entities against the indignity of suit and the
burdens of litigation, see id. at 143-44, 146, but this
justification for an exception to the final order rule is
inapplicable where the claimed sovereign is not a party
to the action. The City here does not claim an
immunity of its own and instead asserts immunity of
the Ferguson Municipal Court. The municipal court is
not a party to the action, and we lack jurisdiction on
this appeal to address any potential claim of immunity
by the municipal court that might arise in future
litigation.
The City points out that this court exercised
jurisdiction in Webb u. City of Maplewood, 889 F.3d 483
(8th Cir. 2018), where a city claimed sovereign
immunity on the ground that a municipal
court—allegedly an arm of the State—was the real
party in interest. Id. at 485-86. In Webb, however, the
city asserted its own alleged sovereign immunity. We
exercised jurisdiction to determine whether there was
merit to the city’s claim that it was immune from suit.
Here, by contrast, the City does not assert sovereign
immunity of its own.

App. 14
For these reasons, the City’s interlocutory appeal is
dismissed for lack of jurisdiction. The City’s motion for
judicial notice and conditional motion to remand are
denied.

App. 15
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1472
[Filed January 10, 2019]
Keilee Fant, individually and
on behalf of all others similarly
situated; Roelif Carter; Allison
Nelson; Herbert Nelson, Jr.;
Alfred Morris; Anthony Kimble;
Donyale Thomas; Shameika
Morris; Daniel Jenkins; Ronnie
Tucker; Tonya DeBerry,
Plaintiffs - Appellees,
v.
City of Ferguson, Missouri,
Defendant - Appellant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from U.S. District Court for the Eastern
District of Missouri - St. Louis
(4:15-cv-00253-AGF)
JUDGMENT
Before COLLOTON, GRUENDER and GRASZ, Circuit
Judges.

App. 16
This appeal from the United States District Court
was submitted on the record of the district court, briefs
of the parties and was argued by counsel.
After consideration, it is hereby ordered and
adjudged that the appeal is dismissed for lack of
jurisdiction in accordance with the opinion of this
Court.
January 10, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 17

APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
No. 4:15-CV-00253-AGF
[Filed February 13, 2018]
KEILEE FANT, et al.
Plaintiffs,
vs.
THE CITY OF FERGUSON,
Defendant.

)
)
)
)
)
)

)
)
)

MEMORANDUM AND ORDER
Plaintiffs in this putative class action claim that
they have been jailed by Defendant, the City of
Ferguson (the “City”), on numerous occasions because
they were unable to pay cash bonds or other debts owed
to the City resulting from their traffic and other minor
offenses. Plaintiffs allege that, in violation of the
United States Constitution and as a matter of the
City’s policies and practices, they were not afforded
counsel, any inquiry into their ability to pay, or a
neutral finding of probable cause in a prompt manner;

App. 18
and they were held in jail indefinitely, in overcrowded
and unsanitary conditions, until they or their friends or
family members could make a monetary payment
sufficient to satisfy the City. Plaintiffs’ amended
complaint asserts seven claims pursuant to 42 U.S.C.
§ 1983, under the Fourth, Sixth, and Fourteenth
Amendments.
The City moves to dismiss, on sovereign immunity
grounds, all claims in Plaintiffs’ first amended
complaint except the claim relating to conditions of
confinement (Count IV). For the reasons set forth
below, the Court will deny the City’s motion.
To survive a motion to dismiss for failure to state a
claim, a plaintiffs allegations must contain “sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). This standard
“simply calls for enough fact to raise a reasonable
expectation that discovery will reveal evidence of [the
claim].” Twombly, 550 U.S. at 556. The reviewing court
must accept the plaintiffs factual allegations as true
and construe them in plaintiffs favor, but it is not
required to accept the legal conclusions the plaintiff
draws from the facts alleged. Iqbal, 556 U.S. at 678;
Retro Television Network, Inc. v. Luken Commc’ns,
LLC, 696 F.3d 766, 768-69 (8th Cir. 2012). A court
must “draw on its judicial experience and common
sense,” and consider the plausibility of the plaintiffs
claim as a whole, not the plausibility of each individual
allegation. Zoltek Corp. v. Structural Polymer Grp., 592

App. 19
F.3d 893, 896 n.4 (8th Cir. 2010) (quoting Iqbal, 556
U.S. at 679).
This is the third motion to dismiss filed by the City,
and this motion asserts arguments similar to the ones
raised in a prior motion (ECF No. 57), but reframes
them in terms of sovereign immunity. In short, the City
argues that Plaintiffs’ constitutional challenges are
directed to the conduct of the municipal court only, and
that, therefore, their claims are barred by the Eleventh
Amendment’s sovereign immunity doctrine because the
municipal court is an arm of the state under Missouri
law. As the undersigned has held in this case, and as
other judges in this District have held with respect to
nearly identical complaints and motions to dismiss, the
complaint here alleges that the challenged conduct was
and is driven by policies and practices implemented by
the City for the purpose of increasing revenue. In
addition to conduct undertaken by the municipal court,
the complaint alleges that the City’s unlawful policies
and practices are executed through its clerk, police
department, and city attorney, all of whom act under
the authority of the city council. Thus, the complaint
sufficiently claims that Plaintiffs were subjected to
unlawful conduct carried out pursuant to the
unconstitutional policies and practices of the City,
which is not entitled to Eleventh Amendment
protection. See, e.g., ECF No. 79; Webb v. City of
Maplewood, Mo., No. 4:16-CV-1703 CDP, 2017 WL
2418011, at *6 (E.D. Mo. June 5, 2017); Baker v. City of
Florissant, No. 4:16-CV-1693 NAB, 2017 WL 6316736,
at *6 (E.D. Mo. Dec. 11, 2017).

App. 20
The City’s argument that the doctrines of absolute
judicial, prosecutorial, and quasi-judicial immunity bar
Plaintiffs’ municipal liability claims likewise fails.
Although the City attempts to limit potential liability
to individual actors, such as the municipal judge, court
clerk, prosecutor, and police officers to whom these
immunity doctrines may apply, the amended complaint
alleges that it was the City’s unconstitutional policies,
practices, and procedures that drove the unlawful
conduct. Unlike government officials, municipalities do
not enjoy absolute or qualified immunity from
constitutional claims brought under 42 U.S.C. § 1983.
Sample v. City of Woodbury, 836F.3d913, 917 (8th Cir.
2016) (citing Leather man v. Tarrant Cty. Narcotics
Intelligence & Coordination Unit, 507 U.S. 163 (1993);
Owen v. City of Independence, Mo., 445 U.S. 622
(1980)).
Finally, the City correctly asserts that, where a
plaintiff brings his § 1983 claims under a theory of
municipal liability based on the decision of an official
responsible for establishing final policy, the
identification of the final policymaker “is itself a legal
question to be resolved by the trial judge before the
case is submitted to the jury.” Soltesz v. Rushmore
Plaza Civic Ctr., 847 F.3d 941, 946 (8th Cir. 2017). But
even if identification of the policymaker is ultimately
required in this case based on the theories of municipal
liability asserted, the Court does not believe that it is
required at this stage. See, e.g., Hoefling v. City of
Miami, 811 F.3d 1271, 1279-80 (11th Cir. 2016)
(holding that “not all theories of municipal liability
under § 1983 require (or depend on) a single final
policymaker,” and identification of a final policymaker

App. 21
is not required at the pleading stage, provided that the
complaint sufficiently alleges “a policy, practice, or
custom of the City” that caused the constitutional
violation).
In light of the extensive briefing submitted on these
issues, the Court finds that oral argument is
unnecessary.
CONCLUSION
For the reasons set forth above,
IT IS HEREBY ORDERED that Defendant’s
corrected motion to dismiss Plaintiffs’ first amended
complaint, and motion for a hearing, are both
DENIED. ECF Nos. 150 & 165.
IT IS FURTHER ORDERED that the stay
previously entered is lifted, and, no later than seven
days from the date of this Memorandum and Order,
the parties shall submit a joint proposed scheduling
plan for the remainder of this litigation, which
addresses the filing deadline and briefing schedule for
any motion for class certification; the parties’ positions
concerning the referral of this action to mediation and
when such a referral would be most productive; and
any other appropriate deadlines and dates in the
current Case Management Order, including a proposed
trial date.
IT IS FURTHER ORDERED that the current
trial setting of April 9, 2018, is VACATED, to be reset
as appropriate in accordance with the parties’ joint
proposed scheduling plan.

App. 22
/s/Audrey G. Fleissig
AUDREY G. FLEISSIG
UNITED STATES DISTRICT JUDGE
Dated this 13th day of February, 2018.

App. 23

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2939
[Filed November 15, 2019]
Keilee Fant, individually and )
on behalf of all others similarly )
situated, et al.
)
Appellees
Tonya DeBerry
John R. Narayan, personal
representative of the estate of
Tony DeBerry, Deceased
Appellee
v.
City of Ferguson, Missouri
Appellant

)
)
)
)
)
)

)
)
)
)
)
)
)
)
)
)

Appeal from U.S. District Court for the Eastern
District of Missouri - St. Louis
(4:15-cv-00253-AGF)

App. 24

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
November 15, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

i

App. 25

APPENDIX F
U.S. Const. Amend. XI
Amendment XI. Suits Against States
The Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
Notes of Decisions (5513)
U.S.C.A. Const. Amend. XI, USCA CONST Amend. XI
Current through P.L. 116-91. Some statute sections
may be more current, see credits for details.

App. 26

APPENDIX G
42 U.S.C.A. § 1983. Civil action for deprivation of
rights
Effective: October 19, 1996
<Notes of Decisions for 42 USCA § 1983 are
displayed in six separate documents. Notes of
Decisions for subdivisions I to IX are contained
in this document. For additional Notes of
Decisions, see 42 § 1983, ante.>
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.

App. 27
CREDIT(S)
(R.S. § 1979; Pub.L. 96-170, § 1, Dec. 29, 1979, 93 Stat.
1284; Pub.L. 104-317, Title III, § 309(c), Oct. 19, 1996,
110 Stat. 3853.)
Notes of Decisions (5997)
42 U.S.C.A. § 1983, 42 USCA § 1983
Current through P.L. 116-91. Some statute sections
may be more current, see credits for details.

App. 28

APPENDIX H
Fed. R. Civ. Proc. 19. Required Joinder of Parties
(a) Persons Required to Be Joined if Feasible.
(1) Required Party. A person who is subject to
service of process and whose joinder will not deprive
the court of subject-matter jurisdiction must be
joined as a party if:
(A) in that person’s absence, the court cannot
accord complete relief among existing parties; or
(B) that person claims an interest relating to the
subject of the action and is so situated that
disposing of the action in the person’s absence
may:
(i) as a practical matter impair or impede the
person’s ability to protect the interest; or
(ii) leave an existing party subject to a
substantial risk of incurring double,
multiple, or otherwise inconsistent
obligations because of the interest.
(2) Joinder by Court Order. If a person has not
been joined as required, the court must order that
the person be made a party. A person who refuses to
join as a plaintiff may be made either a defendant
or, in a proper case, an involuntary plaintiff.

App. 29
(3) Venue. If a joined party objects to venue and the
joinder would make venue improper, the court must
dismiss that party.
(b) When Joinder Is Not Feasible. If a person who
is required to be joined if feasible cannot be joined, the
court must determine whether, in equity and good
conscience, the action should proceed among the
existing parties or should be dismissed. The factors for
the court to consider include:
(1) the extent to which a judgment rendered in the
person’s absence might prejudice that person or the
existing parties;
(2) the extent to which any prejudice could be
lessened or avoided by:
(A) protective provisions in the judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the person’s
absence would be adequate; and
(4) whether the plaintiff would have an adequate
remedy if the action were dismissed for nonjoinder.
(c) Pleading the Reasons for Nonjoinder. When
asserting a claim for relief, a party must state:
(1) the name, if known, of any person who is
required to be joined if feasible but is not joined;
and
(2) the reasons for not joining that person.

App. 30
(d) Exception for Class Actions. This rule is subject
to Rule 23.
CREDIT(S)
(Amended February 28, 1966, effective July 1, 1966;
March 2,1987, effective August 1,1987; April 30, 2007,
effective December 1, 2007.)

i

App. 31

APPENDIX I
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Cause No.: 18-1472
[Filed July 26, 2018]
Keilee Fant,
et al.
Appellees,
vs.
The City of Ferguson,
Appellant.

)
)
)
)
)
)
)
)
)
)

Ferguson’s Conditional Motion Under Fed. R.
Civ. P. 19 to Remand with Instructions to
Dismiss for Failure to join a Required Party
Introduction
Currently pending in this Court is Ferguson’s
appeal asking it to rule that sovereign immunity bars
the lawsuit of appellees Keilee Fant, et al. (collectively
“Motorists”) since, in its view, the municipal court
division within Ferguson is the real party in interest.
In response, Motorists contend that Ferguson as a
municipal corporation, rather than the municipal court

App. 32
division, is the real party in interest, and that because
they have not sued the municipal court division,
sovereign immunity does not bar their lawsuit against
Ferguson as a municipal corporation.
Should this Court agree with Motorists and reject
Ferguson’s primary arguments by concluding that the
municipal court division is not, in fact, the real party in
interest in this matter
and consequently is not
included within Motorists’ definition of “the City of
Ferguson” - this Court should nevertheless decide the
issue of whether the municipal court is a required
party which cannot be joined under Fed. R. Civ. P. 19,
and if in fact it cannot be joined, remand with
instructions that the district court dismiss this matter
for failure to join a required party. At the very least,
this Court should instruct the district court to order
briefing on this issue and dispose of it prior to allowing
this litigation to proceed any further.
Joinder under Rule 19 is a question that may be
raised at any time, even for the first time on appeal.
See, e.g., Davis v. U.S., 192 F.3d 951, 962 n. 13 (10th
Cir. 1999). Nor is that all - the Supreme Court has also
instructed that Rule 19’s concerns are particularly
critical where the litigation may implicate a non-joined
party’s sovereign immunity. See Republic of the
Philippines v. Pimentel, 553 U.S. 851, 867 (2008).
Given these concerns - along with expediency and
judicial efficiency — this issue of joinder under Rule 19
is one that can and should be decided by the Court at
this stage - particularly if it agrees with Motorists’
position. If needed, this Court should also order
supplemental briefing on this question.

:

App. 33
Overview of Rule 19
Under Fed. R. Civ. P. 19,1 a court must dismiss an
action if a required party to the lawsuit has not been
joined, and the party is unable to be joined for
jurisdictional reasons. This issue is not waivable, and
a defendant may raise it at any time, even - as in this
case - for the first time on appeal. See, e.g., Davis v.
U.S., 192 F.3d 951, 962 n. 13 (10th Cir. 1999). A court
should also consider sua sponte whether such dismissal
is mandated. See Pimentel, 553 U.S. 851, 862 (2008);
see Thiopthlocco Tribal Town v. Stidham, 762 F.3d
1226, 1241 (10th Cir. 2014).
The Supreme Court has concluded that Rule 19’s
concerns are of particular importance where a nonparty’s sovereign immunity may be implicated by the
litigation. “A case may not proceed when a requiredentity sovereign is not amenable to suit.” Pimentel, 553
U.S. at 867. A non-sovereign party formally named to
the lawsuit, furthermore, may argue for dismissal on
the ground that the absent party’s sovereign immunity
is implicated. See id. at 862 (ruling that non-sovereign
bank could move for dismissal under Rule 19 on
grounds that the litigation implicated the sovereign
immunity concerns of the Republic of the Philippines).
Indeed, “ ‘[t]he burden is on the moving party to show
the nature of the unprotected interests of the absent
party.’ ” H.S. Resources, Inc. v. Wingate, 327 F.3d 432,
439 (5th Cir. 2003) (quoting Wright & Miller, Federal
Practice & Procedure § 1359 at 426).

1 For this Court’s convenience, Ferguson has attached the entire
text of Fed. R. Civ. P. 19 as an exhibit to this motion.

App. 34
Whether Rule 19 mandates dismissal consists of a
two-step inquiry. First, the court must examine
whether the unnamed party’s joinder is required. Rule
19(a)(1). Joinder is required when complete relief
cannot be accorded among the existing parties in the
non-joined party’s absence. Rule 19(a)(1)(A).
Alternatively, joinder is required if evidence exists
demonstrating the absent party claims an interest
relating to the subject of the litigation, and is situated
in such a manner that disposing of the case in that
party’s absence will impede its ability to protect that
interest. See Rule 19(a)(1)(B)(i); see CitizenPotawatomi
Nation v. Norton, 248 F.3d 993, 998 (10th Cir. 2001).
If the court determines that an absent party’s
joinder is required under one of the above conditions,
but that it nevertheless cannot be joined, it must then
“determine whether, in equity and good conscience, the
action should proceed among the existing parties or
should be dismissed.” Rule 19(b). Factors for a court to
consider in making this determination include “(1) the
nature to which a judgment rendered in the person’s
absence might prejudice that person or the existing
parties; (2) the extent to which any prejudice could be
lessened or avoided by [protective provisions, shaping
the relief, or other measures],” as well as “(3) whether
a judgment rendered in the person’s absence would be
adequate; and (4) whether the plaintiff would have an
adequate remedy if the action were dismissed for
nonjoinder.” Id. But these factors are not exclusive.
Pimentel, 553 U.S. at 862. This Court, furthermore, has
strongly suggested that Pimentel’s emphasis on the
importance of sovereign immunity under Rule 19
“appear[s] to diminish the significance of the other

■;

■j

App. 35
Rule 19(b) factors....” Two Shields v. Wilkinson, 790
F.3d 791, 798 (8th Cir. 2015).
The Municipal Court Division Is a Required
Party Under Rule 19(a)
A. In the municipal court division’s absence,
Motorists cannot obtain complete relief. (Rule
19(a)(1)(A)).
Rule 19 mandates the joinder of parties “who should
or must take part in the litigation to achieve a just
adjudication.” Lincoln Prop. Co. v. Roche, 546 U.S. 81,
90 (2005) (internal quotation marks and brackets
omitted). If the plaintiffs cannot recover their claimed
damages without the absent party, that party’s joinder
is required under Rule 19(a)(1). See Yankee Supply Co.
v. Steven Cox, Inc., 2007 WL 892416 at *2 (E.D. Mo.
March 22, 2007); see also Wilkinson, 790 F.3d at 796
(ruling dismissal was required where the plaintiffs
sought monetary damages and could only prevail if
they showed the United States, an unnamed party,
breached its fiduciary duty). While Rule 19 is
procedural, and does not affect the merits of a lawsuit,
determining whether complete relief can be accorded
among the existing parties without the absent party
“may require some preliminary assessment of the
merits of certain claims.” See Pimentel, 553 U.S. at 867;
see also Mitchell v. Forsyth, 472 U.S. 511, 528-529
(1985) (“[T]he Court has recognized that a question of
immunity is separate from the merits of the underlying
actions for purposes of [the collateral order doctrine]
even though a reviewing court must consider the
plaintiff s factual allegations in resolving the immunity
issue.”).

App. 36
Motorists and the Class they purport to represent
cannot recover the relief they seek in the absence of the
municipal division as a joined party because recovery
cannot be had against a governmental entity - be it
state or local
for alleged unconstitutional
deprivations in the absence of an unlawful policy or
custom. See Kentucky v. Graham, 473 U.S. 159, 166
(1985); see Monell v. Dept, of Soc. Serv. of City of N.Y.,
436 U.S. 658, 694 (1978). A local government,
furthermore, can only be liable for deprivations
resulting from an unlawful policy or custom where it is
a final policymaker “in a particular area, or on a
particular issue.” See McMillian v. Monroe Cnty., Ala.,
520 U.S. 781, 785 (1997). This analysis is dependent
upon state law and the function in question, not upon
an “all-or-nothing” approach that would make the
official in question part of the State or the relevant
local entity in every single circumstance. See id. at 785786.
Motorists seek monetary damages resulting from
the issuance of arrest warrants for failure to appear at
court proceedings, the alleged refusal to appoint
counsel, the setting or revoking of bonds on arrest
warrants, the imposition of fines on ordinance
violations, and the setting of payment plans on such
fines. But as copiously discussed in Ferguson’s opening
brief (“App.Br.”), Ferguson as a municipal corporation
has no legal control over the judicial or quasi-judicial
functions of the municipal court division. (App.Br. at
49-56). Furthermore, “[tjhere are no de facto
policymakers - only dejure.” Solteszv. Rushmore Plaza
Civic Ctr., 847 F.3d 941, 948 F.3d 941, 948 (8th Cir.
2017). Accordingly, Motorists cannot obtain the

App. 37
monetary damages they are seeking absent the joinder
of the municipal court division, rendering it a required
party under Rule 19(a)(1)(A). The question of whether
the municipal court division violated Motorists’
constitutional rights “cannot be tried behind its back.”
See Wilkinson, 790 F.3d at 769 (internal quotation
marks omitted).
The inability of Motorists to be accorded complete
relief in the municipal court division’s absence is
particularly apparent in light of their requested
injunctive relief. Motorists seek a declaratory judgment
that Ferguson violates their rights through the above
judicial and quasi-judicial actions, along with an
injunction barring the City from taking such actions in
the future without taking into consideration their
status as indigents. (1 J.A. at 319-323). But the only
entity with the legal authority to change these actions
is the municipal court division, not Ferguson as a
municipal corporation. Consequently, the municipal
division is a required party to this lawsuit if Motorists
are to obtain the injunctive relief they desire.
The Eleventh Circuit held as much in Focus on the
Family u. Pinellas Suncoast Transit Auth., 344 F.3d
1263 (11th Cir. 2003). There, the plaintiffs sought
injunctive relief directing that a particular
advertisement be run in a group of bus shelters, but
the formally-named defendant had no legal authority
to put up the advertisement in question. Id. at 12791280. The court concluded that the plaintiffs could not
be accorded complete relief without the absent private
company being a defendant, and consequently ordered
it joined to the lawsuit. Id. at 1280. Likewise, since the

App. 38
municipal court division alone has the legal authority
over the judicial and quasi-judicial actions at issue,
Motorists cannot be accorded complete relief in the
absence of that entity, it a required party under Rule
19(a)(1)(A).
B. Proceeding with this litigation in the
municipal court division’s absence will
implicate its interest in controlling its own
judicial and quasi-judicial actions and
decisions. (Rule 19(a)(l)(B)(i)).
An unnamed party’s joinder is also required if
disposing of the litigation in its absence may implicate
its claimed interests in the subject of the litigation.
Rule 19(a)(l)(B)(i). Presumably, even Motorists would
concede that the municipal court division has an
interest the subject giving rise to this lawsuit. After all,
' their complaint is centered entirely around the subject
of that entity’s judicial and quasi-judicial actions — that
is, the issuance of arrest warrants for failure to appear
at court proceedings, the alleged refusal to appoint
counsel, the setting or revoking of bonds on arrest
warrants, the imposition of fines on ordinance
violations, and the setting of payment plans on such
fines. The municipal court division isn’t merely vested
under Missouri law with an interest in the subject of
this lawsuit — that court division is the subject of this
lawsuit.
This Court held as much in Wilkinson. There, two
Native Americans had interests in lands allotted to
them by the United States. Wilkinson, 790 F.3d at 792.
Several private entities submitted bids for oil and gas
mining rights to the land in question, and the United

App. 39
States awarded those rights to the private entities. Id.
The Native Americans brought a class action lawsuit
only against the private entities, and not the United
States. Id. at 792-793. They claimed that the private
entities induced the United States to breach its
fiduciary duties to Native Americans by illegally
awarding the gas and mining rights to the private
entities. Id.
On appeal, this Court ruled that the district court
properly dismissed the lawsuit for failure to join the
United States as required party, and that because
sovereign immunity barred suit against the United
States, the litigation could not go forward. Id. It noted
that the United States plainly had an interest in the
subject giving rise to the litigation, since the only way
the plaintiffs could prevail would be by finding that the
United States breached its fiduciary duty to them. Id.
at 796. Adjudicating this issue without its
participation, furthermore, would mean that “any
determination that particular lands had been illegally
titled would potentially cloud the validity of many of
the land grants approved by the government.” Id. “The
potentially far reaching effects of any decision absent
governmental participation show how different the
interests of the United State are from those of a typical
third party which claims no interest beyond contesting
allegations about its own improper conduct.” Id. This
issue about the United States’ liability could not “be
tried behind its back.” Id. (internal quotation mark
omitted).
The position of the municipal court division here is
no different than that of the United States in

App. 40
Wilkinson. Motorists allege that Ferguson controls the
municipal court division and pressured it to take
unconstitutional judicial and quasi-judicial actions, just
as the plaintiffs in Wilkinson alleged the private
entities induced the United States to take illegal
actions and breach its fiduciary duty to them. Without
the participation of the municipal court division, any
determination that that entity’s judicial or quasi­
judicial actions were illegal will cloud the validity of
how it adjudicates and rules in the cases on its docket.
Just as the plaintiffs in Wilkinson could not litigate the
liability of the United States behind its back by naming
the private entities as the sole defendants, so too
Motorists cannot litigate the liability of the municipal
court division behind its back by naming the municipal
corporation of Ferguson as the sole defendant. The
municipal court division’s interests in overseeing the
carrying out of its judicial and quasi-judicial actions
make it a required party in this lawsuit.
Because Sovereign Immunity Bars the
Municipal Court Division’s Joinder, Motorists’
Lawsuit Must be Dismissed
If a party is required to be joined under Rule 19(a),
but nevertheless cannot be joined, the court must then
proceed to Rule 19(b) to determine whether the lawsuit
nevertheless may continue “in equity and good
conscience.” Pimentel, 553 U.S. at 862-863. “A case may
not proceed when a required-entity sovereign is not
amenable to suit.” Id. at 867. “[Djismissal of the action
must be ordered where there is a potential for injury to
the interests of the absent sovereign.” Id.

App. 41
Having determined in Wilkinson that the United
States was a required party under Rule 19(a), this
Court went on to rule that because sovereign immunity
barred the United States from being joined, and its
joinder was required for the lawsuit to proceed, the suit
had to be dismissed. Wilkinson, 790 F.3d at 797-798.
What’s more, this Court rejected the plaintiffs’
argument that because the United States had never
moved to intervene in the lawsuit, the non-sovereign
defendants had failed to demonstrate the United States
would suffer any prejudice if the litigation proceeded.
Id. at 799. “The United States enjoys sovereign
immunity for appellants’ claims and can decide itself
when and where it wants to intervene.” Id.
In a sentence that could be applied almost verbatim
to Motorists’ lawsuit, this Court concluded in Wilkinson
that, given the United States’ sovereign immunity,
grounds for dismissal under Rule 19(b) were
“particularly strong here, where the wrongful conduct
the [private entities] are alleged to have committed was
inducing the United States to breach its fiduciary duty
to ensure that all leases are in the Indians’ best
interest; all liability is therefore contingent upon
evaluation of the actions of the United States.” See id.
at 798.
One could easily rewrite this holding to say the
following for this lawsuit: given the sovereign
immunity of the municipal court division, dismissal
under Rule 19(b) “is particularly strong here, where the
wrongful conduct that Ferguson as a municipal
corporation is alleged to have committed was inducing
the municipal court division to violate Motorists’

App. 42
constitutional rights by issuing arrest warrants for
failing to appear at court hearings, refusing to appoint
them counsel, imposing excessive fines or bonds on
them, and jailing them for failing to pay such bonds or
fines; all liability is therefore contingent upon an
evaluation of the actions of the municipal court
division.”
Opposing counsel might attempt to argue that
dismissal is not mandated because, following a
suggestion made in Webb v. Maplewood, any sovereign
party could object to a third party subpoena on the
ground of sovereign immunity, and the district court
could “address in the first instance whether the
subpoena can be quashed on that ground.” Webb u.
Maplewood, 889 F.3d 483, 488 (8th Cir. 2018). But this
Court’s own precedent plainly demonstrates that any
such objection would be futile, as it has ruled that
“[tjhere is simply no authority for the position that the
Eleventh Amendment shields government entities [as
third parties] from discovery in federal court.” In re
Missouri DNR, 105 F.3d 434, 436 (8th Cir. 1997) (citing
Alltel Comn., LLC v. DeJordy, 675 F.3d 1100, 11041105 (8th Cir. 2012).
Indeed, Dejordy — the very case Webb cited in
support of its suggestion that the district court could
decide on remand whether to sustain a sovereign
immunity objection to a third party subpoena supports this conclusion. In DeJordy, this Court ruled
that the tribe’s objection should have been sustained on
sovereign immunity grounds, but only because “tribal
immunity is not congruent with that which the Federal
Government, or the States, enjoy.” Dejordy, 675 F.3d at

App. 43
1104 (internal quotation marks omitted). It then
concluded that Missouri DNR was not controlling in
the context of tribal sovereign immunity, as opposed to
a state’s assertion of sovereign immunity. See id. at
1104. In light of these holdings, it is difficult to see
how the district court, on remand, would be willing to
sustain any sovereign immunity objection to a third
party subpoena issued to the municipal court division.
There is no question that the municipal court
division is a required party under Rule 19(a). But,
because it is entitled to sovereign immunity, it cannot
be joined, mandating dismissal of this case under Rule
19(b).2

2 A strong argument can be made that a district court’s denial of a
Rule 19 motion to dismiss for failure to join a required, absent
party entitled to sovereign immunity satisfies the collateral order
doctrine’s three-part test for an interlocutory appeal. See Sanford
v. Maid-Rite Corporation, 816 F.3d 546, 549 (8th Cir. 2016) (ruling
that to be eligible for an interlocutory appeal an order must
“[1] conclusively determine the disputed question, [2] resolve an
important issue completely separate from the merits of an action,
and [3] be effectively unreviewable on appeal from a final
judgment.”) (internal quotation marks omitted).
This is so because (1) the denial of a motion to dismiss under
Rule 19 conclusively determines whether the lawsuit can proceed
in the absence of the non-joined party; (2) whether Rule 19
mandates dismissal is a procedural issue separate from a lawsuit’s
merits, Pimentel, 553 U.S. at 862; and (3) Pimentel held that
merely allowing that case to proceed on the merits violated the
absent parties’ sovereign immunity and interests, see id. at 867
(“[The lower court’s] decision to proceed in the absence of the
[sovereign entities] ignored the substantial prejudice those entities
would likely incur.”) (Emphasis added).

App. 44
Conclusion
Accordingly, in the event this Court rejects
Ferguson’s primary arguments in its briefing about the
municipal court division being the real party in
interest, Ferguson moves that this Court remand this
matter to the district court with instructions that it
dismiss for failure to join a required party under Rule
19 or, at the very least, direct the district court to order
briefing on this matter and dispose of it prior to this
litigation proceeding any further.
Respectfully submitted,
Brinker & Doyen, LLP
/s/ John M. Reeves
JOHN M. REEVES
34 North Meramec — 5th Floor
St. Louis, MO 63105
314.863.6311-Phone
314.863.8197-Fax
jreeves@brinkerdoyen.com
Attorney for Appellant
The City of Ferguson
•k -k *

[Certificate of Compliance and Certificate of Service
Omitted in the Printing of this Appendix]

i

App. 45

APPENDIX J
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1472
[Filed August 8, 2018]
Keilee Fant, individually and )
on behalf of all others similarly )
situated, et al.
)
)
)
)
)
)
)
)
)

Appellees
v.
City of Ferguson, Missouri
Appellant

Appeal from U.S. District Court for the Eastern
District of Missouri - St. Louis
(4:15-cv-00253-AGF)
ORDER
The City’s Conditional Motion to Remand will be
taken with the case for consideration by the panel after
oral argument.
August 08, 2018

App. 46
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

i

